SWR-B-01-02



           AUDIT
          REPORT               PREDICTION AND MAPPING
                                  CAPABILITIES FOR
                              ATMOSPHERIC RELEASES OF
                               HAZARDOUS MATERIALS




                                     MARCH 2001




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                               Department of Energy
                                   Washington, DC 20585

                                       March 7, 2001




MEMORANDUM FOR THE DIRECTOR, OFFICE OF EMERGENCY RESPONSE

FROM:               Lawrence R. Ackerly, Regional Manage           g e     P       .
                    Western Regional Audit Office
                    Office of Inspector General

SUBJECT:            INFORMATION: Audit Report on "Prediction and Mapping
                    Capabilities for Atmospheric Releases of Hazardous Materials"


BACKGROUND

Since the development of nuclear weapons, the Department of Energy (DOE) and its
predecessors have sought to track and mitigate the impact of any atmospheric dispersion
of hazardous materials, primarily radioactive particles. Today, DOE sites generally
obtain predictions and maps of those dispersions from one or more of the following
sources-the National Oceanic and Atmospheric Administration (NOAA), DOE's
Atmospheric Release and Advisory Capability (ARAC), and locally developed in-house
services. The objective of this audit was to determine if there was duplication of
atmospheric prediction and mapping capabilities for hazardous material dispersions
within DOE.

RESULTS OF AUDIT

There was unnecessary duplication of atmospheric prediction and mapping capabilities
for hazardous material dispersions within DOE. Although ARAC was capable of
providing prediction and mapping services to the 18 DOE sites that had the potential for
atmospheric release of hazardous materials, most of those sites had either acquired their
own prediction and mapping capabilities or had contracted with NOAA for those
services. Duplicate capabilities were unnecessary because they were not being
maintained for backup.

We also found that ARAC was duplicating services that NOAA was capable ofproviding
for external events (that is, dispersions not on DOE sites). For example, both provided
services to entities that had nuclear materials, such as nuclear power plants. Both also
predicted and mapped potential terrorist releases of chemical and biological agents. Such
services were, however, NOAA's responsibility, not DOE's.
                                             2


We estimated that DOE can save between $1.56 million and $6.18 million per year if
duplication were eliminated. To eliminate duplication, we recommended that the Office
of Emergency Response (1) define the internal needs for predictions and maps, (2) select
and implement the most cost-effective approach to eliminate internal duplication, and
(3) cease providing predictions and maps to other entities.

MANAGEMENT REACTION

Management concurred with Recommendation 1 and stated that it had developed a draft
policy to define internal needs and requirements for predictions and maps. Management
nonconcurred with Recommendation 2, however, and stated that the report did not
adequately consider the cost of recreating unique capabilities that already existed within
ARAC. Management disagreed with Recommendation 3, stating that responsibility for
predicting and mapping external events is not limited to NOAA or DOE.
PREDICTION AND MAPPING CAPABILITIES FOR
ATMOSPHERIC RELEASES OF HAZARDOUS MATERIALS


TABLE OF
CONTENTS



                Overview

                Introduction and Objective...........................               .............1


                Conclusions and Observations........................................ 1

                Duplication of Capabilities


                Details of Finding......................................   ...............     3

                Recommendations and Comments ...............................                   5

                Appendix


                Scope and Methodology.............................                .............9
Overview
INTRODUCTION      Since the development of nuclear weapons, the Department of Energy
AND OBJECTIVE     (DOE) and its predecessors have sought to track and mitigate the
                  impact of any atmospheric dispersion of hazardous materials, primarily
                  radioactive particles. DOE sites obtain predictions and maps from one
                  or more of the three sources listed below.

                  *   The National Oceanic and Atmospheric Administration (NOAA).
                      Since the 1950s, NOAA's Air Resources Laboratory has provided
                      predictions and maps to DOE's Nevada Test Site. NOAA also
                      provides these products to the Idaho National Engineering and
                      Environmental Laboratory.

                  *   The Atmospheric Release and Advisory Capability (ARAC).
                      Established by the Atomic Energy Commission (AEC) - one of
                      DOE's predecessor agencies - in the early 1970s, ARAC was
                      intended to improve AEC's emergency response capabilities.
                      ARAC is capable of providing prediction and mapping services to
                      any DOE sites that request its services.

                  *   In-house Resources. By acquiring or developing software, sites are
                      capable of providing their own predictions and maps.

                  Because several sources of predictions and maps existed, the audit
                  objective was to determine if there was duplication of atmospheric
                  prediction and mapping capabilities for hazardous material dispersions
                  within DOE.

CONCLUSIONS AND   There was duplication of atmospheric prediction and mapping
OBSERVATIONS      capabilities for hazardous material dispersions within DOE. Although
                  DOE's ARAC was capable of providing prediction and mapping
                  services to the 18 DOE sites that had the potential for atmospheric
                  release of hazardous materials, most of those sites had either acquired
                  their own prediction and mapping capabilities or had contracted with
                  NOAA for those services. We also found that ARAC was duplicating
                  services that NOAA was capable of providing for external events (that
                  is, dispersions not on DOE sites). Such services were, in fact, NOAA's
                  responsibility, not DOE's. Duplication occurred because DOE had not
                  appropriately managed its prediction and mapping capabilities. We
                  estimated that DOE can save between $1.56 million and $6.18 million
                  per year if duplication were eliminated.




Page 1                                               Introduction and Objective/
                                                     Conclusions and Observations
         The audit identified a material internal control weakness that
         management should consider when preparing its yearend assurance
         memorandum on internal controls.




                                     W ce o    CInspdctor General




     2        -Page                        Conclusions and Observations
Page 2
Duplication Of Capabilities

Unnecessary          DOE had duplicate capabilities for predicting and mapping dispersions
Duplication          on its sites. ARAC was capable of serving all 18 DOE sites that had the
                     potential for atmospheric release of hazardous materials. Nine sites,
                     however, had acquired and used their own prediction and mapping
                     capability and two sites had contracted with NOAA for these services.
                     Only seven sites were dependent upon ARAC's capabilities. These
                     duplicate capabilities, however, were unnecessary because they were
                     not maintained as backup systems or to routinely validate predictions.'
                     Beyond being unnecessary, duplicate capabilities could be detrimental.
                     The use of more than one capability in an emergency could hinder the
                     response because, according to DOE and NOAA officials, multiple
                     predictions could conflict to some degree. Once a conflict arose,
                     valuable time might be lost trying to reconcile the differences.

                     Further, ARAC and NOAA were capable of and often performed
                     prediction and mapping services for the same types of external events
                     (that is, dispersions not on DOE sites). For example, both provided
                     services to facilities that had nuclear materials, such as nuclear power
                     plants. Both also predicted and mapped potential terrorist releases of
                     chemical and biological agents. A key distinction, however, is that
                     NOAA, not DOE, had a responsibility to predict and map dispersions
                     not on DOE sites.

Duplication         The FederalRadiologicalEmergency Response Plan (Radiological
Inconsistent With   Plan) and the FederalResponse Plan apply Governmentwide to
Federal Plans And   radioactive dispersions and hazardous, nonradioactive dispersions,
DOE Order           respectively. Under both plans, DOE is responsible for mapping and
                    predicting atmospheric dispersions while those dispersions are on a
                    DOE site. Similarly, other Federal agencies are responsible for
                    mapping and predicting atmospheric dispersions on their sites.
                    However, NOAA is responsible for predicting and mapping any
                    dispersion not on a Federal site. Accordingly, any prediction and
                    mapping service provided by ARAC to sites other than DOE's own sites
                    is questionable. Also questionable is any duplication of predicting and
                    mapping capabilities within DOE. DOE Order 151.1, Comprehensive
                    Emergency Management System, has the objective of eliminating
                    duplicate emergency management within DOE. Therefore, it is



                    ISites that had their own capability or had contracted with NOAA used ARAC's
                    capabilities only 19 times during the two-year period October 1997 through
                    September 1999. All 19 times were exercises, only one of which was for validation.
                    Most of these exercises were done at the request of DOE Headquarters.



Page 3                                                                         Details of Finding
                        inconsistent with the Order for DOE to have duplicate capabilities to
                        map and predict atmospheric dispersions of radioactive and other
                        hazardous materials on DOE sites.

 DOE Did Not Provide    DOE had duplicate capabilities for predicting and mapping dispersions
-Oversight              on its sites because it did not manage prediction and mapping as a
                        DOE-wide activity. ARAC was created in 1972 to take advantage of
                       computing capabilities at Lawrence Livermore National Laboratory. At
                       that time, computing was significantly more costly than today and
                       required large mainframes. Later, personal computers and software for
                       creating predictions and maps became available and DOE sites
                       migrated to developing their own capabilities. Presently, DOE's Office
                       of Emergency Response (Emergency Response), which oversees
                       prediction and mapping within DOE, wants predictions and maps done
                       by ARAC. Emergency Response officials stated that they wanted a
                       common system throughout DOE and a connectivity between the sites
                       and ARAC. However, the sites that have a local capability or have
                       contracted with NOAA prefer to maintain their own capability. 2 Site
                       safety managers stated that they wanted their own capabilities in order
                       to obtain more detailed and timely results. While Emergency Response
                       knew that duplication existed, its officials told us that as a new office it
                       had not had time to develop guidance on the issue.

                       Externally, ARAC predicted and mapped radioactive particle
                       dispersions that were not on DOE sites because DOE was the lead
                       Federal agency for operating the Federal Radiological Monitoring and
                       Assessment Center (Center). As the Center implements the
                       RadiologicalPlan, Emergency Response officials were in a position to
                       select the organization that would predict and map a dispersion that was
                       not on a DOE site. These officials stated that they preferred to use
                       ARAC rather than NOAA because they were reluctant to provide
                       sensitive DOE data to NOAA. However, DOE has for over 40 years
                       provided sensitive data to NOAA to support the weapons program at
                       the Nevada Test Site. Emergency Response officials also stated that
                       they were concerned about NOAA's ability to serve multiple programs,
                       such as counter-terrorism programs and weapons of mass destruction
                       programs. NOAA officials told us that NOAA had extensive
                       experience in both programs through work done with the Department of
                       Defense. Thus, even though NOAA was responsible, DOE still
                       authorized ARAC to predict and map radiological dispersions
                       externally.

                        Most of the sites that did not have their own capability or had not contracted with
                       NOAA stated that they had no preference for a provider of services other than they
                       sought to minimize costs.


Page 4                                                                               Details of Finding
                  Further, DOE allowed ARAC to expand its capabilities to mapping and
                  predicting non-radiological hazardous materials dispersions not on
                  DOE sites. In fact, most of ARAC's hazardous material dispersion
                  mapping and predicting has been for external entities, primarily
                  Federal, in recent years. For example, in Fiscal Years (FYs) 1998 and
                  1999, ARAC provided 76 maps and predictions for chemical and
                  biological agents. Of these, 71 were for external entities and events,
                  such as the Goodwill Games. Nevertheless, the FederalResponse Plan
                  designates NOAA as the provider of predictions and maps for
                  hazardous material dispersions not on a DOE site.

DOE Can Reduce    Based on our analysis of the capabilities currently used by the DOE
Costs             sites, elimination of this duplication could result in savings ranging
                  from $1.56 million to $6.18 million annually, or $7.8 million to $30.9
                  million over the next five years. As there are qualitative considerations
                  in addition to cost considerations, we have not recommended one
                  alternative over the other (that is, we have not recommended that all
                  sites use ARAC and eliminate their own capabilities or that all sites
                  provide their own capabilities and ARAC cease operations). However,
                  we have recommended that duplication be eliminated.

RECOMMENDATIONS   We recommend that the Director, Office of Emergency Response
                  manage predicting and mapping as a DOE-wide activity by:

                  1. Defining the internal needs and requirements for predictions and
                     maps of atmospheric dispersions of hazardous materials on DOE
                     sites;

                  2. Selecting and implementing the most cost-effective approach that
                     meets DOE's needs and requirements while eliminating internal
                     duplication; and,

                  3. Ceasing to provide prediction and mapping services to external
                     entities when DOE is not the designated provider of such services.

MANAGEMENT        Management agreed with the first recommendation but disagreed with
REACTION          the remaining two recommendations.

                  Recommendation 1: Management stated it concurred and had already
                  developed Draft Policy Notice 153.XX to define the internal needs and
                  requirements for predictions and maps of atmospheric dispersions of
                  hazardous materials on DOE sites. This policy establishes requirements
                  for ARAC to support all DOE facilities and sites with a uniform,
                  consistent all-hazards atmospheric dispersion modeling emergency
                  response service. The purpose of this new policy was to improve

Page 5                                            Recommendations and Comments
         real-time consequence assessment capabilities for Departmental sites
         and facilities and to avoid unnecessary duplication at DOE or National
         Nuclear Security Administration sites/facilities. ARAC has submitted a
         schedule to DOE for implementing its new Intranet/Internet technology
         and is currently working with the sites to complete installation.

         Recommendation 2: Management did not concur, stating that the facts
         in the Office of Inspector General (OIG) report are over a year old and
         do not reflect the technical and procedural enhancements that have been
         made within the ARAC program during the past year and which served
         as the basis of the Draft Policy Notice cited above. Further,
         management stated that it would be difficult to assess accurately if there
         would be cost savings by any of the OIG suggested options.

         Management also stated that the cost of recreating the unique
         capabilities that already exist within ARAC and the cost of providing
         the support and services to all the Departmental programs and other
         Federal, state, and local customers have not been adequately
         considered. The recommendation did not take into account the
         operational benefits of centralizing this capability to ensure a uniform
         and consistent product that is required for any off-site release.
         Distinguishing between overlapping capabilities requires a technical
         analysis that cannot be based solely on cost and the number of models
         used. A cost saving can be associated with the integration of ARAC's
         new Intranet/Internet technology and DOE's new policy statement on
         ARAC's role at the sites, whereby all DOE sites will become fully
         connected to ARAC, including those that may not be on the DOE
         Emergency Communications Network.

         Recommendation 3: Management did not concur, stating that during a
         major crisis, consequence management activities are tied directly to
         using the best available technologies, services, and capabilities.
         Generally, this involves both a local capability associated with
         immediate, on-scene response and a national level capability to access
         more advanced technical support that is usually too costly for every
         locality (facility and site) to maintain.

         The OIG report labels all apparent redundancy in capabilities as
         unnecessary, without any technical evaluation of the so-called
         "redundant" systems and the purposes for which these systems may
         seem redundant. The OIG did not conduct a technical evaluation to
         assess whether any of the apparent redundancy was necessary, and thus
         could not reveal that much of the "redundancy" is associated with



Page 6                                   Recommendations and Comments
                   revealing different measurements and/or impacts. In addition,
                   "unnecessary duplication" of capabilities was already being addressed
                   by a DOE policy that was initiated prior to the start of the review.

                   The OIG report also appears to view DOE's role under the Radiological
                   Plan as duplicating responsibilities of NOAA regarding external
                   atmospheric and mapping services. This position appears to be based
                   on an interpretation of the responsibilities called out in the plan.
                   However, Section II.D.3 of the RadiologicalPlan (specifically the
                   section on "Response Functions and Responsibilities--Radiological
                   Monitoring and Assessment") states that DOE has responsibility to
                   provide dose projections and the Department of Commerce (NOAA
                   being the pertinent agency) has the responsibility to prepare and
                   disseminate predictions of plume trajectories, dispersion, and
                   deposition. The RadiologicalPlan does not limit such activities to
                   either DOE or NOAA. Any changes that are to be made concerning
                   DOE capabilities and responsibilities require coordination with and
                   acceptance by the 17 Federal agencies that are signatories to the plan.
                   Additionally, the plan is not a mandatory document and agencies are
                   not legally bound to follow it.

                   The different roles of the two agencies are being described in a draft
                   Memorandum of Understanding (MOU), Coordinated and Integrated
                   Development and Disseminating of Meteorological and Atmospheric
                   Dispersion Products in a Nuclear Emergency. Even though it is yet to
                   be finalized and signed, the MOU speaks of the differing roles. The
                   draft MOU states "NOAA and ARAC dispersion products are designed
                   for different purposes. NOAA products are designed for immediate
                   dissemination, driven by National Centers for Atmospheric Prediction
                   forecast output fields."

AUDITOR COMMENTS   Although management concurred with Recommendation 1, its
                   comments were nonresponsive. The policy presented does not provide
                   guidance that will reduce duplication and, in fact, may expand the
                   duplication to sites not previously utilizing ARAC without a reduction
                   in site level effort.

                   Recommendation 1: Draft Policy Notice 153.XX does not define the
                   internal needs and requirements necessary for making an informed
                   decision regarding the best source for prediction and maps. Rather, the
                   policy pre-supposes ARAC is needed at all sites.




Page 7                                            Recommendations and Comments
          Recommendation 2: While management challenges the OIG's projected
          savings if ARAC were eliminated, it failed to address the primary issue
          of eliminating duplicated facilities. There was no need to consider the
          cost to recreate the unique capabilities of ARAC because DOE has not
         performed any comparative studies to determine if ARAC's capabilities
         are indeed unique or if other sources available and being used by DOE
         sites are capable of providing the services that would meet the
         requirements identified by implementing Recommendation 1. Even
         though management stated that technical and procedural enhancements
         have occurred in the year since the audit began, these enhancements
         have not reduced duplication or altered the need for our
         recommendation. In fact, implementation of the draft policy as
         currently written will expand, rather than reduce duplication, since it
         requires all sites to simultaneously connect to ARAC while allowing
         sites to continue to use their own site models. The detailed funding
         information presented to DOE management during the course of the
         audit demonstrated the savings that could be achieved by eliminating
         duplication.

         Recommendation 3: The OIG has recognized during the audit that a
         national capability is needed. However, the RadiologicalPlan assigns
         that responsibility to NOAA, not DOE. Therefore a technical
         evaluation of prediction and mapping systems was appropriately not
         part of our review. We relied on the expertise of those who developed
         the plan to assign the responsibility to those agencies that were most
         capable in their respective fields. DOE's responsibility is to provide
         dose projections while NOAA has responsibility to predict and map
         dispersions. Further, as pointed out in its management comments, DOE
         should not unilaterally take over another agency's responsibility without
         coordination with and acceptance by the 17 Federal agencies that are
         signatories to the RadiologicalPlan. Finally, management stated that
         the different roles of ARAC and NOAA are being outlined in a draft
         MOU. We are familiar with this document. The MOU, however, has
         been ineffective because it has existed for several years in a draft stage
         and has not yet been agreed to by NOAA.




Page 8                                   Recommendations and Comments
Appendix

SCOPE          The audit was performed from October 6, 1999 to September 25, 2000,
               at ARAC (Livermore, California), Emergency Response (Washington,
              D.C.), and the Oakland Operations Office (Oakland, California). Other
              sites contacted for information but not visited were: Sandia National
              Laboratories (Livermore, California, and Albuquerque, New Mexico);
              Mound Plant (Miamisburg, Ohio); the Pantex Plant (Amarillo, Texas);
              the Rocky Flats Environmental Technology Site (Golden, Colorado);
              Oak Ridge National Laboratory (Oak Ridge, Tennessee); Los Alamos
              National Laboratory (Los Alamos, New Mexico); the Hanford Site
              (Richland, Washington); the Idaho National Engineering and
              Environmental Laboratory (Idaho Falls, Idaho); the Savannah River
              Site (Aiken, South Carolina); Brookhaven National Laboratory (Upton,
              New York); the Nevada Test Site; Pittsburgh Naval Reactors (West
              Mifflin, Pennsylvania); NOAA's Air Resources Laboratory (Silver
              Spring, Maryland); and the Department of Defense Threat Reduction
              Agency Headquarters (Fort Belvoir, Virginia). The audit covered
              DOE's ,rediction and mapping activities during FYs 1998 and 1999.

METHODOLOGY   To accomplish the audit objective, we:

                     . Reviewed applicable Federal and DOE regulations;
                    * Examined prior OIG, General Accounting Office, and DOE
                       Headquarters reviews;
                    * Identified and reviewed atmospheric modeling and plume
                       prediction at ARAC and DOE sites;
                    * Reviewed ARAC response logs for FYs 1998 and 1999 and
                       compared them with NOAA activity logs;
                    * Assessed compliance with DOE Order 151.1 and the Federal
                       emergency response plans;
                    * Interviewed Headquarters, ARAC, NOAA, Defense Threat
                       Reduction Agency, and various DOE site personnel with
                       expertise and experience in prediction and mapping activities;
                       and,
                    *   Reviewed DOE's FY 1999 PerformanceAgreement ahd
                        Accountability Report for Government Performance and
                        Results Act of 1993 performance measures related to
                        atmospheric dispersion and mapping of hazardous material
                        dispersions.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. We tested controls


Page 9                                                    Scope and Methodology
          with respect to Emergency Response's management of emergency
          services, specifically its management of atmospheric modeling and
          hazardous plume prediction resources. Because our review was limited,
          it would not necessarily have disclosed all internal control deficiencies
          that may have existed at the time of our audit. We did not conduct a
          reliability assessment of computer-processed data because only a
          limited amount of such data was used during the audit. We did not
          conduct a technical evaluation of prediction and mapping systems;
          rather, our analysis was based on discussions with those individuals
          with experience in operating the systems. We did not find any relevant
          performance measures within Emergency Response.

          We held an exit conference with Emergency Response officials on
          January 9, 2001.




Page 10                                              Scope and Methodology
                                                                        Report No.: WR-B-01-02


                               CUSTOMER RESPONSE FORM

  The Office of Inspector General has a continuing interest in improving the usefulness of its
  products. We wish to make our reports as responsive as possible to our customers'
- requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
  of this form, you may suggest improvements to enhance the effectiveness of future reports.
  Please include answers to the following questions if they are applicable to you:

 1. What additional background information about the selection, scheduling, scope, or
    procedures of the audit would have been helpful to the reader in understanding this
    report?

 2. What additional information related to findings and recommendations could have been
    included in this report to assist management in implementing corrective actions?

 3. What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

 4. What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name                                                Date

Telephone                                           Organization

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


      Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
